U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 30, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Robert Olan, et al. v. United States of American,
S.Ct. No. 20-306

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 3,
2020, and placed on the docket on September 9, 2020. The government’s response is due on
October 9, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 9, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-0306
OLAN, ROBERT, ET AL.
USA

DONALD B. VERRILLI JR.
MUNGER, TOLLES & OLSON LLP
1155 F STREEET NW
7TH FLOOR
WASHINGTON, DC 20004
202-220-1101
DONALD.VERRILLI@MTO.COM

